No. 20-8403
In the

Supreme Court of the United States
_____________
DANIEL JACOB CRAVEN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
_____________
On Petition for a Writ of Certiorari
to the Supreme Court of Florida
_____________
REPLY BRIEF IN SUPPORT OF
PETITION FOR A WRIT OF CERTIORARI
JESSICA J. YEARY
Public Defender
A. VICTORIA WIGGINS*
Assistant Public Defender
*Counsel of Record for Petitioner
SECOND JUDICIAL CIRCUIT OF FLORIDA
OFFICE OF PUBLIC DEFENDER
301 South Monroe Street, Ste. 401
Tallahassee, Florida 32301
(850) 606-1000
victoria.wiggins@flpd2.com
August 4, 2021

TABLE OF CONTENTS
TABLE OF CONTENTS

i

TABLE OF AUTHORITIES

ii

REPLY BRIEF

1

I.
PETITIONER’S DEATH SENTENCE VIOLATES DUE
PROCESS.
CONCLUSION

1
12

2

TABLE OF AUTHORITIES
PAGES
CASES
Craven v. State, 310 So. 3d 891 (Fla. 2020).

9

Florida v. Powell, 559 U.S. 50 (2010)

8

Harris v. Reed, 489 U.S. 255 (1989).

8

Hurst v. Florida, 136 S. Ct. 616 (2016).

2, 4, 9

Hurst v. State, 202 So. 3d 40 (Fla. 2016)

9

In re Winship, 397 U.S. 358 (1970)

7

Kansas v. Carr, 136 S. Ct 633 (2016)

10

McKinney v. Arizona, 140 S. Ct. 702 (2020)
Rauf v. State, 145 A. 3d 430 (Del. 2016).

4, 9, 10
11

Ring v. Arizona, 536 U.S. 584 (2002).

3, 9

Rogers v. State, 285 So. 3d 872 (Fla. 2019)

9

Sattazahn v. Pennsylvania, 537 U.S. 101 (2003)

10

State v. Mason, 108 N.E. 3d 56 (Ohio 2018)

11

State v. Poole, 297 So. 3d 487 (Fla. 2020).

4

Tuilaepa v. California, 512 U.S. 967 (1994).

5, 6

United States v. Gabrion, 719 F. 3d 513 (6th Cir. 2013)

11

STATUTES
§ 921.141(2), Fla. Stat. (2017).

1,2,4

§775.082(1) (a), Fla. Stat. (2017).

1,3

§775.082(1)(a), Fla. Stat. (2017).

3
3

REPLY BRIEF
I.
I.

PETITIONER’S DEATH SENTENCE VIOLATES
DUE PROCESS.

Summary

Respondent argues that there is no conflict between the decision in this case and
this Court’s decisions by labeling the determinations of sufficiency and weight of the
aggravators as part of the selection process as opposed to eligibility, and argues that as
part of the selection process, these determinations are not the functional equivalent to
elements requiring the burden of proof of beyond a reasonable doubt. Opp. 7-12. This
argument ignores that weighing aggravators and mitigators is a part and parcel of the
factual determination of whether the defendant is eligible for the death penalty under
Florida law.

II.

Florida Law

The determinations of the sufficiency and weight of aggravating factors are the
functional equivalent of elements because they must be made to enhance the penalty
beyond the statutory maximum allowed for capital murder. Under Florida’s sentencing
scheme, the statutory maximum for capital murder is life without parole. §775.082(1)
(a), Fla. Stat. (2017). Thus, the determinations of the existence of aggravating factors,
the sufficiency of aggravating factors, and the weight of the aggravating factors are all
required for the imposition of the enhanced sentence of the death penalty. § 921.141(2),
Fla. Stat. (2017). This Court found these determinations to be functional equivalents of
elements because these determinations are necessary to impose the death penalty.
Hurst v. Florida, 136 S. Ct. 616, 622 (2016).
4

Respondent argues the existence of an aggravating factor alone makes a
defendant eligible for the death penalty, and since the state statute requires the jury to
find the existence of an aggravating factor beyond a reasonable doubt, the
determinations of the sufficiency and weight of the aggravating factors are not elements
and thus, are not required to be found beyond a reasonable doubt. Opp. 7-9.
Respondent’s argument fails to acknowledge that the determination of the existence of
one or more aggravating factor is just the first step of the eligibility determination.
Section 921.141 clearly states that unless the jury finds the aggravating factors to be
sufficient and to outweigh the mitigating factors, the death penalty cannot be imposed;
therefore, the finding of aggravating factors alone will not allow the imposition of the
death penalty.
This Court has held that the label of a determination is not dispositive of whether
it is a functional equivalent of an element of the underlying offense, but rather, the
function of the determination:
We held that Apprendi’s sentence violated his right to “a jury
determination that [he] is guilty of every element of the crime
with which he is charged, beyond a reasonable doubt.”
[Apprendi v. New Jersey, 530 U.S. 466, 477 (2000)]. That
right attached not only to Apprendi’s weapons offense but
also to the “hate crime” aggravating circumstance. New
Jersey, the Court observed, “threatened Apprendi with
certain pains if he unlawfully possessed a weapon and with
additional pains if he selected his victims with a purpose to
intimidate them because of their race.” Apprendi, 530 U.S.
at 476. “Merely using the label ‘sentencing enhancement’ to
describe the [second act] surely does not provide a
principled basis for treating [the two acts] differently.” Id.
The dispositive question, we said, "is not one of form, but of
effect. If a State makes an increase in a defendant's
authorized punishment contingent on the finding of a fact,

5

that fact- no matter how the State labels it- must be found by
a jury beyond a reasonable doubt." Id. at 482-483.
Ring v. Arizona, 536 U.S. 584, 602 (2002). In Ring, Arizona argued that its state
law specifying life imprisonment or death was only “sentencing options” as opposed to
elements of the offense of first-degree murder. This Court in Ring specifically rejected
that distinction, stating
Arizona also supports the distinction relied upon in Walton
between elements of an offense and sentencing factors… As
to the elevation of the maximum punishment, however,
Apprendi renders the argument untenable; the
characterization of a fact or circumstance as an “element” or
a “sentencing factor" is not determinative of the question
“who decides,” judge or jury.”
Ring, 536 U.S. at 604-605. This Court held, “… Arizona’s enumerated aggravating
factors operate as the ‘functional equivalent of an element of a greater offense…” Id. at
609.
Likewise, the determinations of the sufficiency and weight of aggravating factors
are the functional equivalent of elements because they must be made to enhance the
penalty beyond the statutory maximum allowed for capital murder. Under Florida’s
sentencing scheme, the statutory maximum for capital murder is life without parole.
§775.082(1)(a), Fla. Stat. (2017). Thus, the determinations of the existence of
aggravating factors, the sufficiency of aggravating factors, and the weight of the
aggravating factors are all required for the imposition of the enhanced sentence of the
death penalty. § 921.141(2), Fla. Stat. (2017). This Court found these determinations
to be functional equivalents of elements because these determinations are necessary to
impose the death penalty. Hurst v. Florida, 136 S. Ct. 616, 622 (2016).

6

Thus, in holding the determinations of sufficiency and weight of the aggravating
factors not to be functional equivalents of elements, the Florida Supreme Court’s
decision in Petitioner’s case expressly and directly conflicts with the decisions from this
Court.
Respondent cites to State v. Poole, 297 So. 3d 487 (Fla. 2020). Poole is
inapplicable because the issue in Poole involved the sentencing laws in 2011, and not
the sentencing laws in 2017 which applied to Petitioner’s case.
Respondent cited to this Court’s opinion in McKinney v. Arizona, 140 S. Ct. 702
(2020) in support of her argument. The first problem with Respondent’s reliance on
McKinney is the difference between Arizona law and Florida law. The Arizona statute
does make a defendant eligible for the death penalty upon the finding of the existence
of an aggravating factor whereas, as explained above, the Florida statute requires the
additional determinations that the aggravating factors are sufficient and outweigh the
mitigating factors before the death penalty can be imposed. Second, the issue in
McKinney was whether an appellate court can reweigh the aggravating and mitigating
factors, and not the burden of proof. Respondent argues that if a trial court or an
appellate court can reweigh the aggravating and mitigating factors, then that
determination cannot be element that is subject to the burden of beyond a reasonable
doubt. The fallacy of this argument is that whether a determination is an element
depends upon its function under the state law as to whether it increases the penalty
beyond the maximum penalty upon a verdict of guilty.
III.

Petitioner’s Claim

7

Respondent misconstrues Petitioner’s claim as arguing “that the Florida
Legislature unknowingly created additional elements for death sentence eligibility
beyond the Eighth Amendment.” Opp. 9. As stated above, Petitioner’s argument is that
since all three findings of existence of an aggravating factor, the sufficiency of the
aggravating factors, and that the aggravating factors outweigh mitigating factors must
be found before the death penalty, an enhanced sentence beyond the statutory
maximum of life, can be imposed, the three findings are the functional equivalents of
elements.
Then, Respondent repeats her argument that only the finding of the existence of
an aggravating factor is necessary to make Petitioner eligible for the death penalty while
the findings of sufficiency and whether the aggravating factors outweigh the mitigating
factors are part of the selection process, citing Tuilaepa v. California, 512 U.S. 967
(1994).

Respondent’s reliance on Tuilaepa is misplaced as the issue before the Court

was whether the definition of aggravating factors was unconstitutionally vague.
Our capital punishment cases under the Eighth Amendment
address two different aspects of the capital decisionmaking
process: the eligibility decision and the selection decision. To
be eligible for the death penalty, the defendant must be
convicted of a crime for which the death penalty is a
proportionate punishment. To render a defendant eligible for
the death penalty in a homicide case, we have indicated that
the trier of fact must convict the defendant of murder and
find one “aggravating circumstance” (or its equivalent) at
either the guilt or penalty phase. The aggravating
circumstance may be contained in the definition of the crime
or in a separate sentencing factor (or in both)….
We have imposed a separate requirement for the selection
decision, where the sentencer determines whether a
defendant eligible for the death penalty should in fact receive
that sentence. “What is important at the selection stage is an
individualized determination on the basis of the character of
8

the individual and the circumstances of the crime.” That
requirement is met when the jury can consider relevant
mitigating evidence of the character and record of the
defendant and the circumstances of the crime.
Tuilaepa, 512 U.S. at 972-973 (citations omitted). The Court further explained, “[t]here
is one principle common to both decisions, however: The State must ensure that the
process is neutral and principled so as to guard against bias or caprice in the
sentencing decision… [t]hat is the controlling objective when we examine eligibility and
selection factors for vagueness. Indeed, it is the reason that eligibility and selection
factors (at least in some sentencing schemes) may not be ‘too vague.’”Id.
Thus, the Court’s holding in Tuilaepa had nothing to do with which sentencing
determinations were elements. The decision regarding the two stages of eligibility and
selection process focused on preventing bias or ambiguity in the determination of
whether the death penalty should be imposed. Requiring the determinations of
sufficiency of aggravating factors and that the aggravating factors outweigh mitigating
factors to be found beyond a reasonable doubt would create that certainty against bias
or ambiguity called for in Tuilaepa. The Court in In re Winship, 397 U.S. 358,363-364
(1970), explained the certitude provided by the standard of reasonable doubt protects
the extraordinary interests at stake for criminal defendants by requiring the factfinder to
reach a subjective state of certitude as to the elementary determinations at issue:
The accused during a criminal prosecution has at stake
interest of immense importance, both because of the
possibility that he may lose his liberty upon conviction and
because of the certainty that he would be stigmatized by the
conviction... “Where one party has at stake an interest of
transcending value-as a criminal defendant his liberty- th[e]
margin of error is reduced as to him by the process of
placing on the other party the burden of... persuading the
factfinder at the conclusion of the trial of his guilt beyond a
9

reasonable doubt...” To this end, the reasonable doubt
standard is indispensable, for it “impresses on the trier of
fact the necessity of reaching a subjective state of certitude.”
Id. (internal citations omitted).

This explains the Court’s decisions in Apprendi, Ring,

Alleyne, and Hurst that any determinations required to raise the penalty beyond the
statutory maximum must be found unanimously by a jury beyond a reasonable doubt.
This Court recognizes these determinations as functional equivalents of substantive
elements of the offense because they are required to be made for the imposition of the
enhanced penalty.
IV.

Question of State Law
Respondent erroneously attempts to show the lower court’s
decision on this issue was based on state law when, in fact,
it was based upon federal law. Op. 12-13. “State courts, in
appropriate cases, are not merely free to–they are bound
to–interpret the United States Constitution.” Arizona v.
Evans, 514 U.S. 1, 8 (1995). But in “doing so, they are not
free from the final authority of this Court.” Id. at 8-9. To that
end, [this Court] announced, in Michigan v. Long, 463 U.S.
1032 (1983), the following presumption:
“[W]hen . . . a
state court decision fairly appears to rest primarily on federal
law, or to be interwoven with the federal law, and when the
adequacy and independence of any possible state law
ground is not clear from the face of the opinion, we will
accept as the most reasonable explanation that the state
court decided the case the way it did because it believed that
federal law required it to do so.”
At the same time, [this Court] adopted a plain-statement rule
to avoid the presumption: “If the state court decision
indicates clearly and expressly that it is alternatively based
on bona fide separate, adequate, and independent grounds,
we, of course, will not undertake to review the decision.”

Florida v. Powell, 559 U.S. 50, 56-57 (2010) (internal citations omitted).

10

Further, the “Long ‘plain statement’ rule applies regardless of whether the disputed
state-law ground is substantive . . . or procedural.” Harris v. Reed, 489 U.S. 255, 261
(1989).
Thus, the mere fact that a federal claimant failed to abide by
a state procedural rule does not, in and of itself, prevent this
court from reaching the federal claim: “[T]he state court must
actually have relied on the procedural bar as an independent
basis for its disposition of the case.” Furthermore,
ambiguities in that regard must be resolved by application of
the Long standard.”
Id. at 261-62 (internal citations omitted).
Applying that rule here, a conclusive presumption exists that the Florida Supreme
Court decided the case the way it did because it believed federal law required it to do
so. Its decision appears to rest primarily on federal law, and does not clearly and
expressly indicate it was based on state law.
In Petitioner’s Initial Brief filed in the lower court, he argued that the failure to
instruct the jury to determine beyond a reasonable doubt whether the aggravating
factors were sufficient and outweighed the mitigators violated his right to Due Process
under the Fourteenth Amendment to the U. S. Constitution.1

The State based its

argument on the same grounds in its Answer Brief. Therefore, the question posed to
the Florida Supreme Court was based upon federal law. In its opinion, the Florida
Supreme Court cited its decision in Rogers v. State, 285 So. 3d 872, 885-86 (Fla. 2019)
where it deemed to have “mischaracterize[d]” Hurst v. State, 202 So. 3d 40 (Fla. 2016)
in its decisions to require that the sufficiency and weight of the aggravating factors must

Petitioner’s Initial Brief and Respondent’s Answer Brief can be found at
http://onlinedocketssc.flcourts.org/DocketResults/CaseByYear?CaseNumber=1643&Ca
seYear=2018.
1

11

be determined by the jury beyond a reasonable doubt. The court expressly cites this
Court’s decisions in McKinney and Ring in its interpretation of this Court’s decision in
Hurst v. Florida, 136 S.Ct. 616 (2016). Craven v. State, 310 So. 3d 891, 902 (Fla.
2020).
Thus, the decision in this case was predicated upon the interpretation of federal
law, and not state law.
V.

Conflict with this Court’s Decisions

Respondent argues the Florida Supreme Court’s decision does not conflict with
this Court’s decision in Alleyne, Ring and Hurst because those decisions concern “fact
determinations” which increases the penalty beyond the statutory maximum rather than
“subjective determinations involving mercy”. Op. 13-14. Respondent repeats her
argument distinguishing “eligibility” process determinations from “selection” process
determination. As shown above, that distinction has no relevance as to whether
sentencing determinations should be found beyond a reasonable doubt. Respondent’s
argument ignores the fact that this Court made it clear in Apprendi, Ring, and Alleyne
that it was the function of the determination, not the label, that indicated whether it
should be considered as an element of capital murder; if the function of the
determination increased the penalty beyond the statutory maximum, then that
determination functions as an element.
Respondent cites to Sattazahn v. Pennsylvania, 537 U.S. 101 (2003) which is
based upon Pennsylvania law and not Florida law.

As pointed out in the Petition, §

921.141(2)(b) requires more than a finding of an aggravating factor to make a defendant
eligible for the death penalty; the jury also must find the aggravating factor

12

was

sufficient to support the sentence of death and that the aggravating factors must
outweigh the mitigating factors. All three findings must be made before the jury can
recommend a death sentence.

Respondent’s reliance on McKinney and Kansas v.

Carr, 136 S. Ct 633 (2016) as support for her argument is misplaced. The issue in
McKinney was whether an appellate court could “reweigh” the mitigating and
aggravating factors to which this Court answered in the affirmative comparing the
appellate court’s reweighing akin to the application of the harmless error analysis. In
Carr, the issue was whether the jury had to find mitigating evidence beyond a
reasonable doubt. The Court held that the burden of beyond a reasonable doubt did not
apply to weighing of mitigating evidence because weighing of mitigating evidence alone
does not increase the penalty. Respondent conflates the objective of displaying mercy
in the consideration of mitigation with the determination that aggravating factors
outweigh mitigating factors which serves as a basis to increase the penalty from a life
sentence to the death penalty. A determination which increases the penalty cannot be
simply regarded as a question of mercy.
VI.

Unsettled Question or Conflict Among the Lower Courts

Respondent argues there is no unsettled conflict among the lower courts. Op.
18-19. The first case Respondent cites is State v. Mason, 108 N.E. 3d 56 (Ohio 2018)
in which the issue raised was that the jury does too little in merely recommending a
death sentence while the judge makes the findings upon which the death sentence is
imposed. Thus, Mason is not on point.

While the Sixth Circuit’s opinion in United

States v. Gabrion, 719 F. 3d 513 (6th Cir. 2013) may support Respondent’s position,
cases from Delaware require the jury to find that aggravating factors outweigh mitigating

13

factors beyond a reasonable doubt where the Delaware Supreme Court held that state’s
death penalty to be unconstitutional because it failed to require the finding that
aggravating factors outweigh mitigating factors beyond a reasonable doubt. Rauf v.
State, 145 A. 3d 430 (Del. 2016). Therefore, the decision below presents an unsettled
question of constitutional law.
Accordingly, the petition for certiorari should be granted.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be granted.

Respectfully submitted,
JESSICA J. YEARY
Public Defender
A. VICTORIA WIGGINS*
Assistant Public Defender
*Counsel of Record for Petitioner
SECOND JUDICIAL CIRCUIT OF FLORIDA
OFFICE OF PUBLIC DEFENDER
301 South Monroe Street, Ste. 401
Tallahassee, Florida 32301
(850) 606-1000
victoria.wiggins@flpd2.com
August 4, 2021

14

